March 2005
Report No. 05-014


The FDIC’s Process for Writing Off
Assets




             AUDIT REPORT
                                                                                            Report No. 05-014
                                                                                                 March 2005




                                    The FDIC’s Process for Writing Off Assets
                                    Results of Audit

                                    The FDIC has established a sound internal control process and procedures
Background and                      for writing off receivership assets in conformity with DRR delegations of
Purpose of Audit                    authority. For the 24 write-off cases we sampled, the decisions to write
                                    off receivership assets from failed depository institutions were justified and
The FDIC’s Division of
Resolutions and Receiverships       adequately supported.
(DRR) is responsible for
resolving failed FDIC-insured       We also found, however, eight write-off cases totaling $31 million in debt
depository institutions promptly,   for which DRR had not issued Forms 1099-C in compliance with FDIC
efficiently, and responsively in    and IRS policies and directives. As a result, the government may have
order to maintain public
confidence in the nation’s          been deprived of significant tax revenue.
financial system. Once the
resolution has occurred, the        Recommendations and Management Response
FDIC is appointed as receiver to
wind up the closed institution’s    We recommended that DRR improve procedures related to reporting
affairs including its liquidation
                                    discharges of debt, issue Forms 1099-C for the write-off cases identified in
and the disposition of assets.
Until assets are sold               the report, and review all write-off cases for 2003 and 2004 to ascertain
(dispositioned), DRR performs       whether reporting of additional discharges of debt is warranted. DRR
required asset servicing in order   concurred with two of our recommendations and partially concurred with
to maintain the assets’ values.     the third recommendation. Regarding the partial concurrence, DRR agreed
When reasonable attempts to
                                    to issue Forms 1099-C for the seven write-off cases that involved loans to
sell or recover assets have been
unsuccessful and additional         foreign debtors and loans discharged in corporate bankruptcies. DRR did
expenditure of FDIC resources       not agree to issue the forms for the remaining case because the taxable
is unjustified, the FDIC may        event occurred before bank failure, and DRR stated that it is not its policy
write off the assets.               to issue a Form 1099-C in this circumstance. Notwithstanding, DRR has
                                    requested an FDIC Legal Division opinion regarding the appropriateness
In processing write-off
transactions, the FDIC is           of that policy. We consider management’s planned actions responsive to
required to report a canceled       the recommendations.
debt of $600 or more on Form
1099-C, Cancellation of Debt,
to the Internal Revenue Service
(IRS).

Our audit scope included 435
write-off cases, valued at           Asset Write-Offs Requiring the Issuance of Form 1099-C
$292 million. We reviewed a                                                 Number of      Value of
sample of 24 write-off cases                   Nature of Write-Off             Cases        Cases
valued at about $95 million.
                                      Loans to Foreign Debtors                       4    $16,894,282
The audit objective was to            Loans Discharged in Corporate
determine whether DRR’s               Bankruptcies                                   3     13,346,240
decisions for writing off assets      Loans Previously Written Off by a
from failed financial insured         Failed Institution                             1        418,026
depository institutions were           Totals                                        8    $30,658,548
properly justified and               Source: OIG review of DRR asset case files.
adequately supported.

To view the full report, go to
www.fdicig.gov/2005reports.asp
Federal Deposit Insurance Corporation                                                                     Office of Audits
801 17th Street NW, Washington, DC 20434                                                     Office of Inspector General




DATE:                                  March 31, 2005

MEMORANDUM TO:                         Mitchell L. Glassman, Director
                                       Division of Resolutions and Receiverships


FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               The FDIC’s Process for Writing Off Assets
                                       (Report No. 05-014)


This report represents the results of the Federal Deposit Insurance Corporation (FDIC) Office of
Inspector General’s (OIG) audit of the FDIC’s process for writing off assets from failed insured
financial depository institutions. A full or partial write-off of a receivership1 asset occurs when
the amount of the asset is removed from the books of record because the value of the legal
obligation of the debtor has been declared a loss. The write-off process is described in detail in
the Background section of this report.

The objective of the audit was to determine whether decisions to write off assets from failed
insured depository institutions were properly justified and adequately supported. The scope of
our audit included B-25 delegation of authority2 write-off cases from January 1, 2003 through
September 30, 2004. According to the Division of Resolutions and Receiverships (DRR), 435
B-25 write-off cases had a book value of about $292 million for the period covered in our audit.
Additional details on our objective, scope, and methodology are presented in Appendix I.

BACKGROUND

The FDIC is charged with the resolution of failing FDIC-insured financial institutions. Once the
resolution has occurred and the FDIC is appointed receiver for the closed institution, DRR
inventories and values any remaining assets and uses various strategies to sell or recover assets.
The disposition of certain assets can be lengthy. In the interim, DRR performs required asset
servicing (building maintenance, processing of loan payments, etc.) in order to maintain the
assets’ values until they are sold.




1
  Receiverships are failed financial institutions for which the FDIC has been appointed as receiver to manage the
liquidation (asset sales, loan servicing, claims resolution, etc.) of the institution’s remaining assets.
2
  The delegation of authority to the Director, Division of Resolutions and Receiverships, is limited to assets with a
book value of $25 million or less. B-25 is the delegated authority provision for write-offs—either non-discretionary
(B-25a) or discretionary (B-25b).
DRR Account Officers are responsible for managing the disposition of the assets. When
reasonable attempts to sell or recover assets have been unsuccessful and the DRR Account
Officer believes that additional expenditure of FDIC resources are unjustified, the Account
Officer may request that the assets be written off. According to the FDIC, the full or partial
write off of an asset occurs when the FDIC removes the amount of the asset from the books of
record because the value of the legal obligation of the debtor has been declared a loss.

According to DRR’s Asset Disposition Manual, the Account Officer begins the write-off process
with the preparation of a case memorandum. The case memorandum should be a persuasive
written document used to request and obtain authority to act with respect to an asset. The
delegations of authority determine the level for which a case is written. The cases have a two-
fold purpose: (1) to seek authority from the proper individual or committee and (2) to create a
permanent record, in the form of an asset file, of the FDIC’s actions taken to conform to its
fiduciary responsibilities. The asset file must contain adequate documentation to demonstrate
that a reasonable attempt to recover the asset has been made. Once the write-off request is
processed, the write-off information is maintained in the FDIC’s National Processing System
(NPS), which DRR uses to account for loans and related financial transactions required from
failed depository institutions.

Internal Revenue Service (IRS) regulations regarding reporting discharges of indebtedness are
contained in 26 U.S.C. 6050P, Information Reporting for Discharges of Indebtedness by Certain
Federal Agencies. FDIC guidance regarding reporting discharges of indebtedness is primarily
contained in two documents. FDIC Circular 5400.1, Reporting for Discharge of Indebtedness
(IRS Forms 1099), dated May 1, 2001, contains guidance for the Account Officers on the events
requiring the reporting of the discharges of indebtedness. The circular states that a Form 1099-C
must be filed with the IRS for each debtor for whom a debt of $600 or more is canceled.
DRR’s Field Financial Office (FFO) Accounting Manual provides instructions for handling
write-off transactions. The FDIC’s failure to issue a Form 1099-C, when appropriate to do so,
subjects the FDIC to potential IRS penalties and theoretically deprives the government of
potential tax revenue.

RESULTS OF AUDIT

The FDIC has established a sound internal control process and procedures for writing off
receivership assets managed by DRR Account Officers in conformity with DRR delegations of
authority. For the 24 write-off cases we sampled, the decisions to write off receivership assets
from failed depository institutions were properly justified and adequately supported.
Accordingly, DRR has reasonable assurance that established processes and procedures were
implemented as designed. However, we identified eight write-off cases involving about
$31 million in debt for which DRR had not issued Forms 1099-C in compliance with FDIC and




                                                2
IRS policies and directives. As a result, the government may have been deprived of significant
tax revenue.3

IRS Requirements for Filing Form 1099-C

The FDIC must file Form 1099-C for each debtor for whom the FDIC has canceled a debt of
$600 or more when an identifiable event has occurred. IRS regulations define an identifiable
event as:

    •   a discharge of indebtedness under Title 11 of the U.S. Code (bankruptcy);
    •   a cancellation or extinguishment of indebtedness that renders a debt unenforceable in a
        receivership, foreclosure, or similar proceeding in federal or state court;
    •   a cancellation or extinguishment of indebtedness upon the expiration of a statute of
        limitations for collection of an indebtedness;
    •   a cancellation of indebtedness pursuant to an election of foreclosure remedies by a creditor
        that statutorily extinguishes or bars the creditor's right to pursue collection;
    •   a cancellation of indebtedness that renders a debt unenforceable pursuant to a probate or
        similar proceeding;
    •   a discharge of indebtedness pursuant to an agreement between an applicable entity and a
        debtor to discharge indebtedness at less than full consideration; or
    •   the expiration of the non-payment testing period as described in the regulation.

Receivership Assets Written Off but Not Reported by DRR

The write-off cases for which DRR did not issue the required Forms 1099-C for discharges of
debt fell into several categories as shown in the table below. Generally, the forms were not
issued because the Account Officers involved were not fully aware of the reporting requirements
associated with these rather atypical write-offs. A summary of the circumstances surrounding
each category of write-off follows. Additional details regarding the specific write-off cases were
provided separately to DRR for its use in resolving our finding.

          Asset Write-Offs Requiring the Issuance of Forms 1099-C
                  Nature of Write-Off         Number of Cases     Value of Cases
           Loans to Foreign Debtors                           4       $16,894,282
           Loans Discharged in Corporate
           Bankruptcies                                       3         13,346,240
           Loans Previously Written Off by
           a Failed Institution                               1            418,026
            Totals                                            8       $30,658,548
          Source: OIG review of DRR asset case files.




3
 A Department of Defense, Office of Inspector General, report entitled, Department of Defense Compliance with
Federal Tax Reporting Requirements (Report No. 95-234), dated June 14, 1995, states that when IRS Forms 1099
are not filed, recipients report only about 28.8 percent of the income on their tax returns. Therefore, based on our
sample alone, as much as $22 million of the $31 million may not have been reported by debtors on their tax returns.


                                                         3
Loans to Foreign Debtors: DRR did not file Forms 1099-C for four write-off cases totaling
$16,894,282 in loans to foreign debtors. For example, DRR wrote off an $8.7 million loan to a
foreign debtor but did not issue the appropriate Form 1099-C. The DRR Account Officer
responsible for this asset stated that he was unaware of the requirement to issue Form 1099-C to
a debtor with a foreign address. However, DRR’s failure to issue the form is contrary to IRS
regulations. Further, FDIC Circular 5400.1 states, “It is not the responsibility of the FDIC to
determine what is taxable income, only to report the discharge, regardless of circumstances.”

In addition, DRR’s Accounting Manual provides an example of when reporting discharges of
debt to the IRS is not required, which is misleading and incorrect. Specifically, the example
describes a foreign customer with a foreign address which is not in conformity with the IRS
regulations. The regulations state that if a foreign entity has income from any U.S. source, the
entity must file a U.S. tax return. Therefore, DRR should have filed Forms 1099-C for the four
cases.

Loans Discharged in Corporate Bankruptcies: DRR did not file Forms 1099-C for three
write-off cases totaling $13,346,240 in loans discharged as part of corporate bankruptcies. For
example, a corporation was granted bankruptcy protection, which included a debt of about
$4.8 million owed to an FDIC receivership. The DRR Account Officer determined that
repayment was unlikely and recommended writing off the debt. However, according to FDIC
Circular 5400.1, a corporate bankruptcy is an event requiring issuance of Form 1099-C.

For two other bankruptcy cases totaling $8.5 million, a DRR official agreed that Forms 1099-C
should have been issued and intends to issue them after collection activity on related loans has
concluded.

Loans Previously Written Off by a Failed Institution: DRR did not file Forms 1099-C for
over 100 loans valued at $418,026 that had been charged off by a bank prior to failure but had
not been reported to the IRS. When the FDIC took control of the bank, the FDIC recorded the
loans in the receivership records as a “control total”4 for accountability purposes. The DRR
Account Officer recommended that the control total be written off the receivership records.
However, when doing so, DRR did not issue Forms 1099-C for the individual discharged debts.
According to DRR, the forms were not issued because the loan files were in poor shape, and
DRR did not want to risk issuing incorrect forms. However, because the legitimacy of the
discharged amount of debt is a matter to be resolved between the debtor and the IRS, this is not a
valid reason for failing to report the discharges of debt.

CONCLUSION AND RECOMMENDATIONS

The decisions to write off receivership assets that we reviewed were properly justified and
adequately supported. However, the Corporation should take steps to ensure that the government
is not deprived of significant tax revenue resulting from cases we identified and that similar
cases are properly reported in the future.


4
 A “control total” represents the total book value attributed to one or more individual assets that have been
aggregated for reporting purposes.


                                                          4
We recommend that the Director, DRR:

(1)    Revise FDIC Circular 5400.1, Reporting for Discharge of Indebtedness (IRS Forms
       1099), and the supporting manuals to better conform with IRS regulations requiring the
       issuance of Forms 1099-C.

(2)    Issue Forms 1099-C for those write-off cases identified in the report and provided to
       DRR that had not been reported to the IRS.

(3)    Review all write-offs for 2003 and 2004, and issue Forms 1099-C, if appropriate.


CORPORATION COMMENTS AND OIG EVALUATION

On March 10, 2005, the Director, DRR, provided a written response to a draft of this report. The
response is presented in its entirety in Appendix II of this report. The Director concurred with
recommendations 1 and 3 and partially concurred with recommendation 2. A summary of the
Director’s responses and our analysis follows. See Appendix III for additional details on the
status of the recommendations.

The Corporation’s planned actions addressed recommendations 1 and 3. Regarding the 11 write-
off cases discussed in a draft of this report and in management’s comments related to
recommendation 2, DRR agreed to issue Forms 1099-C for the seven cases, totaling
$30,240,522, that involved loans to foreign debtors ($16,894,282) and loans discharged in
corporate bankruptcies ($13,346,240). For the three cases (totaling $20,967,928) that were
discussed in the draft of this report and related to various non-loan assets, DRR provided
additional information supporting its position that Forms 1099-C were not necessary under the
circumstances. We revised the report accordingly. Finally, DRR did not agree to issue Forms
1099-C for the remaining case totaling $418,026. Specifically, the taxable event for that case
occurred before bank failure, and DRR indicated that its policy is not to issue a Form 1099-C in
that circumstance. Nevertheless, DRR has requested an opinion from the FDIC’s Legal Division
regarding the appropriateness of that policy.

Taking into consideration that Forms 1099-C are not necessary for the three non-loan asset write-
offs, we maintain that the forms should be issued for the eight write-off cases totaling
$30,658,548. We consider management’s planned actions responsive to the recommendations,
which are resolved but will remain undispositioned and open until we have determined that
agreed-to corrective actions have been completed and are effective.




                                               5
                                                                                      APPENDIX I



                       OBJECTIVE, SCOPE, AND METHODOLOGY

The audit objective was to determine whether DRR’s decisions for writing off assets from failed
financial insured depository institutions were properly justified and adequately supported. The
audit focused on determining compliance with, and the adequacy of, existing policies and
procedures and identifying opportunities for minimizing losses to the insurance funds through
the recovery of collateral or retention of the right to pursue the debtor for future satisfaction of
the debt. The scope of our audit included 435 B-25 write-off cases ($292 million book value)
from January 1, 2003 through September 30, 2004.

To test DRR’s asset write-off procedures, we reviewed documentation supporting write-off
decisions for a sample of 24 asset write-offs ($95 million book value) representing about
33 percent of the $292 million in write-offs for the audit period. Specifically, we determined
whether write-off decisions were: approved by officials with the appropriate delegation of
authority, adequately supported by corroborating evidence in DRR’s Credit Notation System
(CNS) and asset files, and reported to the IRS through issuance of Forms 1099-C.

Computer-processed data was not significant to our findings, conclusions, and recommendations;
therefore, we were not required to perform assessments of computer-processed data. We used
computer-processed data as background information in generating a universe of write-off cases
from which to select our sample.

To gain an understanding of internal controls, we reviewed the following documents:

   •   Federal Deposit Insurance Act;
   •   DRR’s Strategic Plans for 2003 and 2004;
   •   DRR’s Asset Disposition Manual;
   •   the FDIC’s delegation of authority resolutions;
   •   DRR Circular 1160.1, DRR Senior Management Oversight Committee;
   •   FDIC Circular 5400.1, Reporting for Discharge of Indebtedness (IRS Form 1099);
   •   the FDIC’s Business Events Documentation Guide;
   •   minutes of Senior Management Oversight Committee meetings; and
   •   IRS Bulletins on Information Reporting Under Section 6050P for Discharge of
       Indebtedness, Instructions for Forms 1099-A and 1099-C, and General Instructions on
       Use of Form 1120-F to Report Foreign Corporate Income, Gains, Losses, Deductions,
       and Credits.

Also, we interviewed officials from DRR’s Asset Management Branch, Financial Reporting
Group, and Internal Review Group, which are located in Dallas, Texas.

In addition, we reviewed work performed by DRR’s Internal Review group. This included
quarterly reviews of all actions taken under delegated authority, including asset write-offs, and a
DRR Internal Review report dealing specifically with B-25 write-off cases. We reviewed DRR
Internal Review’s working papers and considered its efforts in designing our audit approach.




                                                 6
                                                                              APPENDIX I



We performed our work at the FDIC office in Dallas, Texas, from August 2004 through January
2005. We conducted the audit in accordance with generally accepted government auditing
standards.




                                             7
Appendix II
                               APPENDIX II




           REDACTED MATERIAL




                   REDACTED




      REDACTED MATERIAL



    REDACTED

REDACTED




                   9
     APPENDIX II




10
                                                                                                                                                APPENDIX III



                                              MANAGEMENT RESPONSE TO RECOMMENDATIONS
     This table presents the management response that has been made on the recommendations in our report and the status of the
     recommendations as of the date of report issuance. The table also reflects information obtained in discussions with management
     regarding its response.
                                                                                                                                                           Open
      Rec.                                                                     Expected            Monetary      Resolved:a      Dispositioned:b            or
     Number        Corrective Action: Taken or Planned/Status               Completion Date        Benefits      Yes or No         Yes or No              Closedc
                   DRR will draft a revision to FDIC Circular
           1       5400.1 to better conform to IRS regulations.                 June 30, 2005         N/A            Yes                No                 Open

                   DRR will issue Forms 1099-C for seven of the
           2       eight asset write-off cases identified. For the
                   remaining case in which the taxable event
                   occurred before bank failure, DRR requested an          September 30, 2005         N/A            Yes                No                 Open
                   opinion from the FDIC’s Legal Division on the
                   appropriateness of DRR’s policy to not issue
11




                   Form 1099-C in that circumstance.

                   DRR will conduct a review of all write-offs for
           3       2003 and 2004 to ensure compliance with FDIC                 June 30, 2005         N/A            Yes                No                 Open
                   Circular 5400.1.

     a
          Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                     (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                     (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
                         long as management provides an amount.
     b
       Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
     through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
     c
         Once the OIG dispositions the recommendation, it can then be closed.
